                                    NATIONAL SCIENCE FOUNDATION
                                           4201 Wilson Boulevard
                                         ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM

DATE:             March 10, 2011

TO:               Martha A. Rubenstein
                  Director and Chief Financial Officer
                  Office of Budget, Finance, and Award Management (BFA/OAD)

FROM:             Dr. Brett M. Baker /s/
                  Assistant Inspector General for Audit

SUBJECT:          Limited Scope Review: Effort Reporting and Cost Sharing Improvements Needed
                  at California State University – Fresno, Report Number OIG-11-6-004

        This memorandum report provides the results of our limited scope review of federal grant
management processes at the California State University – Fresno (Fresno or Foundation). 1 The
review was part of an on-going series of evaluations being performed by the Office of Inspector
General (OIG) to provide oversight of National Science Foundation (NSF) funds awarded under
the American Recovery and Reinvestment Act of 2009 (ARRA or Recovery Act). A prior report
on the University’s processes for quarterly ARRA reporting was issued on June 18, 2010. This
report addressed our evaluation of whether Fresno has adequate internal controls in place to
provide reasonable accountability over NSF grant funds. Of the 10 NSF grants totaling $5.3
million awarded as of December 31, 2009, four awards totaling $3.5 million (65 percent) were
ARRA funded. Considering the increased accountability for Recovery Act funds and the
significant increase in total NSF funding provided by ARRA grants, it is important that Fresno
has the capabilities and systems in place to provide proper stewardship of federal assistance
funds. A detailed description of the background, objectives, scope, and methodology can be
found in Appendix A.

       Our review found that Fresno had established a financial management system to
separately track and account for NSF grants and generally had adequate written policies and
procedures for administering federal awards. However, the review identified two areas where
improvements were needed to be fully compliant with federal requirements. Specifically, Fresno

1
           The California State University Fresno Foundation (Foundation) is a non-profit auxiliary corporation that is
the legal recipient of federal grants in behalf of the University. As such, the Foundation is responsible for the
administrative and financial management of federal awards in compliance with federal standards. As separate legal
entities, the Foundation and the University each have separate personnel management systems.
needs to (i) implement an effective labor effort reporting system for confirming the
reasonableness of salary charges to sponsored projects and (ii) appropriately document NSF cost
sharing commitments.

        Fresno officials were aware that significant improvements were needed in its effort
reporting system to be fully compliant with federal requirements. However, due to the severe
budgetary shortfalls in the State of California in recent year, funding was not available to initiate
the required improvements. Furthermore, we found that while the Foundation had established
adequate cost sharing policies and procedures, cognizant officials were not complying with the
required processes for tracking and documenting NSF cost sharing commitments.

       A draft of this memorandum was provided to Fresno management for its review and
comment. In addition, a written outline of the review results was presented to the Foundation at
the completion of our onsite review work so that timely actions could be taken to implement
improvements needed to promote the highest degree of accountability over NSF grant funds.
Fresno concurred with the findings and stated that they are currently developing several
processes to address the recommendations. Fresno’s response can be found in its entirety in
Appendix B.

       We consider Fresno’s internal control procedural weaknesses identified in the audit
findings to be significant. Accordingly, we request that your office work with the Foundation
and the cognizant audit agency, the Department of Education (ED), to develop a written
Corrective Action Plan detailing specific actions taken and/or planned to address each audit
recommendation. Milestone dates should be provided for corrective actions not yet completed.

        To help ensure the recommendations are resolved within six months of audit report
issuance pursuant to Office of Management and Budget Circular A-50, please coordinate the
development of the Corrective Action Plan with our office during the resolution period. Each
audit recommendation should not be closed until NSF, in coordination with ED, determines that
Fresno has adequately addressed the recommendations and proposed corrective actions have
been satisfactorily implemented. Please note that we have sent a copy of the audit report under
separate cover to Mr. Richard Rasa of ED OIG.


Cc:    Mary Santonastasso, Division Director, DIAS
       Dale Bell, Deputy Division Director, DIAS
       Alex Wynnyk, Branch Chief, CAAR/DIAS




                                                  2
                               Audit Findings and Recommendations

Finding 1- Effort Reporting System Not in Compliance with Federal Regulations

        Federal regulations 2 require that salaries and wages charged to sponsored projects be
based on payroll records documented in accordance with the generally accepted practices of
colleges and universities. Specifically, “the payroll distribution system must be incorporated into
the official records of the institution; reasonably reflect the activity for which the employee is
compensated by the institution; and encompass both sponsored and all other activities on an
integrated basis. . . The system will provide for independent internal evaluations to ensure the
system’s effectiveness and compliance with the above standards.”

        Our review found that Fresno needs to establish a payroll distribution and effort reporting
system that is fully compliant with federal requirements. The Foundation's manual effort
reporting system and time keeping system lack sufficient controls to ensure the integrity of the
certification process for confirming the reasonableness of salary charges to NSF projects. A
discussion of the control weaknesses identified follow.

•   Manual System Compromises the Integrity of the Labor Certification Process
        Contrary to federal regulations, Fresno’s effort reporting process is not “incorporated into
the official records of the institution.” Specifically, each salaried employee is required to
manually prepare and submit their own effort reports. This paper-based process requires faculty
members, graduate students, and other exempt employees to perform complicated calculations of
their own time and salary components from two different payroll systems to individually develop
their own labor effort reports. For example, faculty members must manually obtain salary
information for their university appointment, overload salaries, cost shared time, and reimbursed
release time on sponsored projects at the end of each academic semester from both the
University and Foundation payroll systems. The individual manually enters the information into
a labor effort worksheet, which converts the various salary charges into effort percentages.
Given the manual nature of the process and the lack of established Foundation controls to
validate the accuracy of these employee-developed effort reports, there is a high potential for
error that results in a lack of integrity in the labor certification process.

         Fresno officials acknowledged that significant improvements are needed in its effort
reporting system. Specifically, the Foundation had an independent evaluation of the effort
reporting system performed and a draft report was issued in June 2008. The subject report states
that “There is an urgent need for the Foundation to establish an effort reporting system to be in
compliance with federal guidelines, and prevent itself from potential liabilities and disallowances
from funding agencies.” This feasibility study offered four alternatives for establishing a
compliant and effective effort reporting system. However, the Foundation has not been able to
initiate any improvements because of funding shortages caused by the severe budgetary
shortfalls in the State of California in recent years.


2
       2 CFR Part 220, Cost Principles for Educational Institutions (Formerly OMB Circular A-21) issued August
31, 2005.


                                                      3
•   Personnel System Lacks Controls to Ensure Reasonableness of NSF Salary Charges

       The Foundation’s personnel management system lacks controls to ensure the
reasonableness of salary charges to federal grants. Specifically, the manual time keeping system
does not have adequate checks to preclude duplicate salary payments and its payroll system lacks
adequate support for all employee salary rates used for charging federal grants.

         Foundation procedures require employees charging salaries to federal projects to
manually prepare a time sheet reporting actual hours worked on a daily basis. However, the
system requires employees to submit separate time sheets for each sponsored project on which
they work instead of reporting all hours on a consolidated time sheet. As a result, the system
does not comply with federal standards requiring reporting of all employee work activities on an
“integrated basis” and lacks controls to ensure the accurate reporting of total hours worked.
Such a non-integrated and manual time keeping system increases the risk that reporting errors
will not be detected and result in erroneous salary charges to sponsored projects. This is
particularly true given the Foundation’s payroll system does not track the dates for each
two-week timesheet used to pay employee salaries.

        As a result, our limited transactions testing of $16,429 of salary charges for three senior
personnel on one ARRA grant 3 disclosed that one of the Principal Investigators (PI) had received
a $1,200 duplicate salary payment for work completed during the same payroll period. Once the
duplicate payment was identified, UAA made appropriate adjustments to credit the amount back
to the subject grant. Even though officials stated that other mitigating controls existed to ensure
the accuracy of payroll transactions, the salary overpayment was made when the PI mistakenly
submitted a duplicate time sheet for hours worked on his NSF grant for the same two-week
period. Because the dates for each two-week payroll period are not tracked for salary payments,
identification of the duplicate salary payment is not possible.

        Furthermore, contrary to federal regulations, our review disclosed that the Foundation's
payroll system does not have adequate controls to ensure salary charges to sponsored projects are
based on institutional base salaries. Specifically, the Foundation lacks supporting documentation
to support the salary rates in its payroll system for all employees charging salaries to federal
grants. Our review disclosed that the salary rates are based on an Employee Information Form
submitted by each individual employee. While such a form is signed by the applicable College
Dean, the Foundation does not have access to the employee’s University appointment letter
and/or employment contract to validate the accuracy of the salary rate. While our review of one
faculty member disclosed that the individual had actually understated his salary rate on the
Employee Information Form, internal control measures are, nevertheless, required to ensure
employee salary rates in the Foundation's payroll system are valid.

       Cognizant management officials acknowledged the control weaknesses in the
Foundation's personnel management system. Officials stated that actions have been initiated to
research electronic time keeping systems to remedy the deficiencies in the Foundation's manual


3
     Transactions tested were limited to $16,429 or 17 percent of the total NSF salary charges of $96,936 as of
December 31, 2009.


                                                        4
time keeping system. Such an electronic system should preclude the submission of duplicate
timesheets that result in salary overpayments.

        The control weakness in Fresno’s payroll distribution and effort reporting system
provides less assurance that salaries and wages charged to NSF grants are reliable and reasonably
represent actual work performed. The systemic nature of the control weaknesses identified raise
concerns about the reliability of the $1.2 million of budgeted salary charges to NSF grants (20
percent of total) and the salary portion of the Foundation’s other $18 million of fiscal year 2009
federal sponsored expenditures.

Recommendation

We recommend that the NSF Director of the Division of Institution and Award Support,
coordinate with the cognizant audit agency, as needed, to require Fresno to:

1.1 Establish a payroll distribution and labor effort reporting system that is fully compliant with
    federal requirements. At a minimum, the effort reporting system should (a) be incorporated
    into Fresno’s official institutional records, (b) provide integrated reporting of all
    compensated employee activities, and (c) ensure wages charged to sponsored project are
    based on institutional base salaries.

   Fresno Response: Fresno concurred with our finding and stated they are currently
   developing a labor effort reporting system that is fully compliant with federal requirements.

   OIG Comments: Fresno’s response met the intent of our recommendation.




                                                 5
Finding 2- NSF Cost Sharing Not Adequately Documented

        Federal grant regulations 4 require all cost sharing be verifiable from recipient records,
necessary and reasonable for proper and efficient accomplishment of project or program
objectives, and allowable under the applicable cost principles. Accordingly, both the University
and the Foundation have jointly established cost sharing policies and procedures. 5 These
policies state that the Foundation is responsible for maintaining cost sharing records and
documentation in sponsored project files. As such, internal procedures require the cognizant
Foundation grant analyst to obtain cost share commitment and tracking reports from the PI on a
quarterly basis along with all supporting documentation. Concomitantly, PIs are assigned the
responsibility for certifying all cost share to a sponsored project is accurate and benefits the
project and providing cost documentation to the Foundation grant analyst.

         However, review of cost sharing on two NSF awards, of which one was ARRA funded,
disclosed that the Foundation did not adequately track its cost sharing pursuant to established
institutional policies and procedures. Specifically, the Foundation did not obtain the required
quarterly cost share commitment and tracking reports and supporting documentation from PIs.
While the required documentation was not in the Foundation’s project files, there was
correspondence evidencing that the grant analyst had informed cognizant project officials of the
cost sharing requirements for both grants and the need to maintain appropriate documentation.
However, at the time of review in February 2010, no cost sharing reports or documentation were
available for the following cost shared expenditures even though some of the expenses had been
incurred up to nine months earlier:

        •   From June to December 2009, the University had expended $65,300 to fulfill its cost
            sharing commitment of $750,002 on a six-year ARRA grant for $1.5 million.

        •   As of May 2009, Fresno had fulfilled its entire $45,000 cost sharing commitment on
            another NSF grant for $311,414.

        Due to the lack of cost sharing documentation in project files, the Foundation had
similarly not complied with procedures for establishing cost sharing accounts in its project cost
accounting system to track such costs at the time of our review.

        As a result, the Foundation has not fulfilled its responsibility for proper financial
administration of sponsored projects as required by federal regulations and NSF award terms and
conditions. The lack of timely monitoring and tracking of required cost sharing on its research
projects increases the risk that the Foundation would not be aware if obligations could not be met
by the end of the award so that timely actions can be initiated to facilitate a timely resolution.


4
        Section 23 of 2 CFR Part 215, Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations (formerly OMB Circular
A-110).

5
        Academic Policy Manual (APM) 502, Interim Policy on Cost Share/Match, was approved in February
2007.


                                                      6
Without an effective tracking and monitoring system, Fresno could jeopardize its federal
research funding and be potentially liable if the required cost share is not provided.

         This weakness occurred because Foundation management did not perform adequate
oversight to ensure compliance with its cost sharing requirements. Concomitantly, the PIs did
not fulfill their grant responsibilities by taking the initiative to comply with established
institutional procedures requiring submission of quarterly cost sharing reports and supporting
documentation to the cognizant grant analyst.

Recommendations

We recommend that the NSF Director of the Division of Institution and Award Support,
coordinate with cognizant audit agency, as needed, to require Fresno to comply with established
institutional cost sharing policies and procedures as follows:

2.1     Establish an oversight process to ensure cost sharing is timely tracked in its project costs
        accounting system and quarterly cost sharing reports and supporting documentation are
        timely obtained and maintained in project files. Such a process should hold PIs
        accountable for their assigned cost sharing responsibilities.

       Fresno Response: Fresno concurred with our finding and stated that they are developing
       a review process to ensure timely reporting and tracking of cost sharing.

       OIG Comments: Fresno’s response met the intent of the recommendation.




                                                 7
                                                                                     Appendix A


Background, Objectives, Scope, and Methodology

Background:

        California State University - Fresno (Fresno) is a public university founded in 1921 and is
part of the 23 campus California State University system. Fresno has approximately 21,500
students and 1,100 full and part-time faculty members. In support of the University, the Fresno
State Foundation (Foundation) is a non-profit auxiliary corporation that is the legal recipient of
federal grants in behalf of the University. As such, the Foundation is responsible for the
administrative and financial management of federal awards. Specifically, the Foundation’s
Office of Financial Services provides post-award administration and support services for
sponsored research grants and contracts in accordance with the terms and conditions outlined in
the awards.

        As of December 31, 2010, Fresno had 10 NSF grants totaling $5.3 million and
cumulative expenditures of approximately $781,283 million. Of the total NSF funding,
(i) $1.2 million or 20 percent was budgeted for salaries and wages and (ii) cost sharing
commitments totaled $750,002 or 13 percent. Also, four of the 10 grants, totaling $3.4 million
or 65 percent, were funded by the American Recovery and Reinvestment Act of 2009 (ARRA or
Recovery Act).

Review Objectives:

       The objective of our limited scope review was to evaluate whether Fresno had established
an adequate system of internal control to provide reasonable assurance that NSF award funds
were administered in accordance with federal grant regulations and NSF award terms and
conditions.

Scope and Methodology:

       This review was part of an on-going series of OIG evaluations being performed to
provide oversight of the $3 billion in NSF ARRA funding. Fresno was chosen for review
because of the significant increase in total NSF funding provided by the Recovery Act funds.
Our review included NSF grant charges as of December 31, 2009. The evaluation was limited
in scope because only minimal transactions’ testing was performed to assess whether the
Foundation was complying with its established institutional policies and procedures for federal
grants management. Transactions testing was focused on ARRA grants, but extended to other
NSF grants as required, because Recovery Act expenditures were minimal at the time of our
review. Specifically, our testing of effort reports was limited to $16,429 or 17 percent of the
total NSF wage costs of $96,936 as of December 31, 2009. However, transactions testing was
performed for all Fresno cost sharing commitments on NSF grants. Our review included the
following steps:




                                                8
   •   Reviewed criteria applicable to federal grants management, including Office of
       Management and Budget (OMB) and NSF guidance.

   •   Assessed whether Fresno policies, procedures, and processes for federal grants
       management were consistent with OMB and NSF requirements in the following areas:
       general grant management process, grant accounting system, time and effort reports, cost
       sharing, subawards and subrecipient monitoring, procurement, property and equipment,
       participant support, travel, indirect costs, consultants, quarterly financial reports, and
       annual and final project reports.

   •   Interviewed cognizant Fresno officials, including principal investigators and grant
       management staff, to gain an understanding of their role in the grant management
       process.

   •   Conducted analytical procedures and limited non-statistical sampling of NSF grant
       charges in major cost categories to assess the adequacy of supporting documentation and
       compliance with established Fresno grant management processes and related controls.

   •   Discussed fieldwork results with Fresno management officials.


        The onsite Fresno review work was performed from February 16-19, 2010, with
additional information obtained through December 2010. This review was performed as
nonaudit services pursuant to paragraph 3.25a of the Government Auditing Standards. As such,
the review was not conducted in full compliance with generally accepted government auditing
standards, but was planned and performed to obtain sufficient appropriate evidence to provide a
reasonable basis for the findings and conclusions contained in this memorandum report.




                                                9
    To obtain a copy of the Auditee Response to this report,

     Please contact us at oig@nsf.gov or at (703) 292 7100.

In your request please specify the audit title and report number.
